Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of First Coast Services Options Medicare Payments to Providers Terminated from January 1, 2003, Through January 31, 2007
July 10, 2008 | Audit A-05-08-00038
Executive Summary
First Coast Services Options, Inc. (a Medicare fiscal intermediary for Florida), made unallowable Medicare payments totaling $876,000 to three providers for services that were performed after the providers were terminated from Medicare.
Complete Report
Download the complete report (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS